No.

In the Supreme Court of the United States
JAMES ROSEMOND,
Petitioner,
v.
UNITED STATES,
Respondent.
On Petition For A Writ Of Certiorari To
The United States Court Of Appeals
For The Second Circuit
CERTIFICATE OF SERVICE
I, Michael Rayfield, counsel for Petitioner and a
member of the Bar of this Court, certify that on this
28th day of September, 2020, I caused three copies of
this Petition for Writ of Certiorari to be served by
overnight mail and electronic means on the following:
Soliciter General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue N.W.
Washington, DC 20530-0001
supremectbriefs@usdoj.gov

I further certify that all parties required to be
served have been served.
s/ Michael Rayfield
Michael Rafield

